<html>
<title> - A NEW ERA OF U.S.-CHINA RELATIONS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                   A NEW ERA OF U.S.-CHINA RELATIONS?

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-216

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-813 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                                 ______
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida               ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin--
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana--5/20/14        WILLIAM KEATING, Massachusetts
    
CURT CLAWSON, Florida
    added 7/9/14 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Christopher K. Johnson, senior adviser and Freeman Chair in 
  China Studies, Center for Strategic and International Studies..     6
Mr. Gordon Chang, author.........................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Christopher K. Johnson: Prepared statement...................     9
Mr. Gordon Chang: Prepared statement.............................    17

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    44

 
                   A NEW ERA OF U.S.-CHINA RELATIONS?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon, and welcome to this afternoon's 
subcommittee hearing. I want to thank our distinguished 
witnesses for being here as we examine a critical relationship 
that is becoming increasingly challenging and unfortunately 
confrontational--and one that surely deserves more attention.
    The nature of the United States' relationship with the 
People's Republic of China has arguably entered a new era. 
Since President Xi Jinping assumed the leadership role in 
China, U.S.-China affairs have steadily undergone a fundamental 
transformation. In this new era, the PRC is more assertive and, 
indeed, aggressive on an entire range of issues covering the 
political, security, and socioeconomic spectrums.
    Today, we hope to learn more about China's new leadership 
team and discuss what we can do as a nation to ensure that 
America's interests are best represented overseas.
    I believe that the U.S.-China relationship is one of our 
most important given what is at stake. And when we discuss what 
exactly is at stake--such as peace and security across the 
Taiwan Strait and freedom of navigation and movement in the 
East China and South China Seas--we see that not enough 
attention is being given to this critical relationship.
    Just a few months ago, the debate focused on whether the 
administration's ``pivot to Asia'' was adequately resourced. 
Today, I believe that this ``pivot'' is stuttering. When it 
comes to the Asia-Pacific region, the conversation is focused 
on China, and this includes China's aggressive foray into the 
South China Seas. It's clear the administration is struggling 
to find a way to better direct America's resources toward the 
Asia-Pacific and find a way to manage the growth of maritime 
territorial disputes. As a result, with this void, we see that 
China is shifting its assertiveness in the security arena and 
is now focusing it on American businesses operating in that 
country.
    According to a recent article in the New York Times, 
``foreign companies in a range of industries including 
automobiles, technology, pharmaceuticals and food packaging 
have faced increased scrutiny including raids and allegations 
of unfair practices.'' The article goes on to say that the 
heightened attention against foreign companies--including many 
American firms--comes at a time when Beijing is looking for 
ways to help its homegrown industries. I find this behavior 
particularly troubling given that it violates China's own 
commitments to the World Trade Organization.
    China's increased level of enforcement activity comes from 
the implementation of its Antimonopoly Law, which was drafted 
over a period of 10 years in consultation with authorities in 
the U.S. Government and the European Union. The law even draws 
from elements of both U.S. and EU competition laws. But, now, 
it's being used to target U.S. and EU companies. During the 
U.S.-China Security and Economic Dialogue held this past July, 
China committed to using its monopoly laws to promote consumer 
welfare and not its domestic companies or industries. This is 
not what we are seeing happen.
    China's National Development and Reform Commission, the 
organization responsible for reviewing monopoly activities, 
abuse of dominance, and abuse of administrative power involving 
pricing, asserts that foreign companies only account for 10 
percent of antimonopoly cases. However, this can't be verified 
and the situation seems anything but fair, objective, 
transparent, or nondiscriminatory.
    Earlier this month, the U.S.-China Business Council 
reported that 86 percent of its member companies are concerned 
about China's evolving antimonopoly regime. Among the many 
reasons are broader concerns about how China will use this law 
to protect domestic industry, how it will affect the value of 
intellectual property, and whether it will be used to force 
lower prices rather than let the market decide. As a result, in 
addition to already growing concerns about China cyberhacking 
offensive, warming relations with Russia, and aggressive 
incursion upon the territories claimed by neighboring nations, 
the implications of China's antimonopoly investigations could 
be quite serious.
    In my congressional district in southwestern, Ohio which 
includes the city of Cincinnati, a significant number of 
businesses count on the Chinese market for an important part of 
their annual sales. Small businesses and large businesses 
alike, exports to China have helped many firms grow and 
prosper--and hire American workers. However, as reports about 
China's antimonopoly investigations mount, so do worries about 
the unfair treatment of U.S. businesses in that country.
    Looking ahead, it's vital that we gain a better 
understanding of the Chinese leadership, and its political, 
security, and socioeconomic goals. It's also critical for us to 
determine a way forward for effectively engaging with various 
stakeholders in China so that the U.S. businesses have a 
clearer understanding about what this means for their future 
activities in China. What is at stake in this new era of U.S.-
China relations is extremely important and now is the time to 
give it the attention it deserves. I look forward to the 
testimonies of the witnesses here this afternoon, and I would 
now like to recognize the ranking member of this subcommittee, 
Eni Faleomavaega from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. And I want to 
thank you for holding today's hearing on U.S.-China relations. 
This is an important opportunity for our subcommittee to review 
and evaluate our relationship with China as we move forward in 
the coming years.
    I especially want to thank my good friend and dear 
colleague, the congressman from California, for all these years 
that we have been butting heads too, and deeply enjoyed his 
input and understanding of the issues affecting the Asia-
Pacific region. And I also personally welcome Mr. Johnson and 
Mr. Chang as our witnesses this morning.
    As China's economy continues to rise and the U.S. economy 
stagnates, there is no doubt that China will overtake the U.S. 
as the world's largest economy soon. China remains the largest 
manufacturer, the largest trading economy, and also holds the 
largest foreign exchange reserves in the world.
    China's economic growth is also driving the demand for 
energy for a population of almost 1.4 billion people. This is a 
direct impact on world energy markets. China will likely be the 
world's largest importer of oil, and is heavily relying on 
other countries to provide long term energy resources, like 
natural gas and oil pipelines from Russia and Central Asia as 
well as the influx of Chinese investments for steady oil supply 
from Africa.
    A greater concern for economic and strategic security is 
the significant increase in spending by China to beef up its 
military and develop more high tech weapons. With the expansion 
of China's naval and improvements in its defense and missile 
capabilities, this buildup may be a direct threat to countries 
like Japan, Vietnam, the Philippines, and others which are 
engaged in territorial disputes with China in the South China 
Sea and East China Seas. Although military ties between the 
U.S. and China have strengthened and engagement has increased 
in the past few years, the United States is pivoting to Asia as 
a counter.
    Are we too late, Mr. Chairman? For years I have been 
critical of U.S. foreign policy toward the Asia-Pacific region, 
because for too long the United States has neglected a part of 
the world where two thirds of the world's population resides 
and which includes, according to the United States Pacific 
Command, seven of the world's ten largest standing militaries, 
five of the world's declared nuclear nations, two of three 
largest economies, and the largest democracy, the world's 
busiest international sea lanes and nine of the ten largest 
ports, all in the Asia-Pacific region.
    So while I appreciate the need for the United States to 
focus on Europe and the Middle East, given the complexities in 
those regions I am disappointed that the United States has 
failed to devote the same time, attention and resources to the 
Asia-Pacific region where we are also faced with unique and 
complex challenges that also seriously affect U.S. security and 
stability.
    For your information, Mr. Chairman, many of American 
Samoa's sons and daughters as well as military men and women 
from your district proudly serve in the U.S. Pacific Command to 
protect and defend the territory of the United States, its 
people and its interest in the Asia-Pacific region and they 
deserve more than a pivot as do Pacific Island nations.
    Pacific Island nations supported U.S. interest during World 
War II, but when times got good for us we neglect them also. 
Now China is providing hundreds of millions of dollars in aid 
to help their struggling economies and improve their quality of 
life.
    Many Pacific Island nations including American Samoa's 
closest neighbor, the Independent State of Samoa, is accepting 
China's assistance. Many Island nations' leaders have no choice 
but to work and strengthen their partnerships with China, and I 
don't blame them given that the United States has been an 
undependable partner.
    It is very unfortunate, Mr. Chairman, that the United 
States, Australia and New Zealand are just now realizing how 
important the Asia-Pacific region is. But as the Pentagon 
finally shifts its posture for rebalancing in the Asia-Pacific 
region, it is my sincere hope that the administration will not 
only take a look at engaging China and improving bilateral 
relations that would be beneficial to both countries, but I 
also hope that we will seriously go about in strengthening our 
relationships with our allies and partners throughout the Asia-
Pacific region. I also hope we will address the concerns of our 
U.S. business community overseas.
    With that, Mr. Chairman, again I thank you for your 
leadership and for taking this time to hold this hearing, and 
again I welcome our witnesses this morning. Thank you.
    Mr. Chabot. Thank you very much. The gentleman yields back. 
And I would now like to recognize the gentleman from 
California, Mr. Rohrabacher, who also is the chairman of the 
Subcommittee on Europe, Eurasia, and Emerging Threats, for the 
purpose of making an opening statement.
    Mr. Rohrabacher. Thank you very much, and I will treat this 
as not a new era but an emerging threat.
    I want to thank the chairman and thank my good friend, Eni 
Faleomavaega. And it took me a long, long time to learn how to 
pronounce that name, but it was worth it because Eni has been 
one of the great, great members of this body and who has won 
the hearts and respect of people on both sides of the aisle. So 
we are very happy to celebrate your leadership as well, Eni.
    Today we are of course looking at China. And let me just 
give this challenge to the leadership in China who I hope are 
listening. They usually do pay attention to hearings like this. 
If you want us to believe that you are reforming, do something 
that you can do that will indicate that you are taking a major 
step in the right direction.
    And that would be, I would suggest, that you declare that 
it is no longer the policy of the Communist Party of China to 
discourage the worship of God and that you now respect the 
freedom of people to worship God in their own way.
    That is a very doable thing for them. It would not in any 
way put them in harm's way. If they can't do that they can't 
reform anyway politically and socially in that country. We have 
Falun Gong who are still being arrested in great numbers and 
murdered in prison, their organs sold; Muslims who are being 
repressed; Buddhist monasteries in Tibet that are still 
suffering, and Buddhist priests that are treated so badly they 
are committing suicide, burning themselves to death. And then 
of course we have the control of Christian churches so that 
they have strict controls of what is going on.
    This is something they can do. If they want to--look, we 
know there are no opposition parties. There is no freedom of 
press. There is no freedom of demonstrations. There is no labor 
unions. There is no independent court system in China for this 
new day. But if they want to show us that they are going in the 
right direction, they can't cure all of that or maybe even one 
of those might be too much, but at least walk away from this 
idea that you have got to repress people when they are 
worshiping God. And that is the challenge of today.
    I am interested in hearing the witnesses, and especially in 
terms of the military actions that China has taken, the rogue 
China that now threatens the territorial claims against Japan, 
the Philippines, Vietnam and India. Thank you very much, Mr. 
Chairman.
    Mr. Chabot. Thank you very much, Mr. Chairman. And I have 
been advised that we have visitors with us today from the 
American Chamber of Commerce in Shanghai, and the subcommittee 
would like to welcome you; we hope that your visit is 
productive. And if you would like to stand and be recognized we 
would encourage you to do so. [Applause.]
    Thank you for spending some time with us. And I would now 
like to introduce our distinguished panel here this afternoon 
before we hear their testimony.
    First, Mr. Christopher Johnson is a senior adviser and 
holds the Freeman chair in China Studies at the Center for 
Strategic and International Studies. Previously, Mr. Johnson 
worked as a senior China analyst at the CIA. Mr. Johnson served 
as an intelligence liaison to two Secretaries of State on 
worldwide security issues, and in 2011 was awarded the U.S. 
Department of State's Superior Honor Award for outstanding 
support to the Secretary. He has also served abroad in 
Southeast Asia. Throughout his career, Mr. Johnson has focused 
on China's political and economic transformation, the 
development of its military, and its resurgence as a regional 
and global power. He has frequently advised senior U.S. 
policymakers and foreign officials on Chinese leadership and 
Beijing's foreign and security policies. Mr. Johnson graduated 
summa cum laude with bachelor's degrees in history and 
political science from the University of California at San 
Diego and received his M.A. in security policy studies from the 
George Washington University. We welcome you this afternoon, 
Mr. Johnson.
    I would next like to introduce Gordon Chang. Mr. Chang is 
the author of the ``Coming Collapse of China'' and ``Nuclear 
Showdown: North Korea Takes On the World,'' which focuses on 
nuclear proliferation and the North Korean crisis. He is a 
regular contributor at Forbes.com and blogs to the World 
Affairs Journal. Mr. Chang has worked in China and Hong Kong 
and most recently in Shanghai as counsel to the American law 
firm Paul Weiss, and earlier in Hong Kong as partner in the 
international law firm Baker and McKenzie. His writings have 
appeared in numerous publications and he is a frequent speaker 
at universities, think tanks, and private institutions. Mr. 
Chang has briefed several government agencies and has testified 
before the House Committee on Foreign Affairs and the U.S.-
China Economic and Security Review Commission. He has also 
served two terms as a trustee of Cornell University. We welcome 
you here this afternoon, Mr. Chang.
    I am sure both witnesses are familiar with the 5-minute 
rule. We would ask that you keep your testimony within that 
time. There should be a yellow light that comes on and lets you 
know when you have 1 minute to wrap up; and the red light will 
come on. Then we would appreciate it if you would conclude your 
testimony as close to that time as possible.
    And we will begin with you, Mr. Johnson. You are recognized 
for 5 minutes.

  STATEMENT OF MR. CHRISTOPHER K. JOHNSON, SENIOR ADVISER AND 
   FREEMAN CHAIR IN CHINA STUDIES, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Johnson. Thank you very much, Mr. Chairman.
    Distinguished members of the subcommittee, good afternoon, 
and thank you for this opportunity to come before you today. I 
am especially pleased to know that as was mentioned in some of 
your opening statements that despite the complex challenges the 
United States currently is facing in other parts of the world, 
there is an eagerness among the members to discuss these 
important issues with regard to the future trajectory of U.S.-
China ties under the leadership of its new President, President 
Xi Jinping.
    Although these other challenges that we are facing 
represent issues of concern and even a clear and present danger 
to U.S. interests and the lives of our citizens, I would submit 
that they ultimately should be viewed as near term tactical 
issues to be skillfully managed by U.S. policymakers. By 
contrast, getting our relationship with China right should 
represent the fundamental strategic preoccupation of U.S. 
foreign policy thinkers in the 21st century.
    So let me spend just a few minutes sketching out for you my 
assessment of the state-of-play in the relationship as well as 
some of the specific issues that I have been asked by the 
subcommittee to address in this testimony.
    In terms of the relationship, the bilateral relationship, 
relations between Washington and Beijing while generally stable 
are certainly under stress. Chinese leaders and officials are 
at best confused by what they see as a lack of consistency from 
the Obama administration with regard to its policy toward 
China, and at worst convinced that the United States is bent on 
containing China's rise.
    For their part, U.S. policymakers are deeply concerned by 
Beijing's exceptionally forthright assertion of its sovereignty 
claims to disputed territories in the East and South China 
Seas, as well as the new Chinese leadership's seemingly more 
active foreign policy approach in regions outside China's 
traditional areas of foreign policy interest and focus as China 
reasserts itself as a global power.
    Add to these persistent U.S. concerns with regard to 
Chinese cyberespionage and the litany of thorny economic issues 
between our two countries and it is easy to see why the 
relationship appears more tense than it has in some time. 
Moreover, senior officials in both capitals bemoan the lack of 
meaningful strategic dialogue between the two leaderships.
    The practical implications of this absence of effective 
senior level dialogue is the absence of strategic trust between 
the two leaderships and the resultant drift in bilateral ties 
brought on by policy stagnation. Still, in my assessment none 
of these trends is irreversible. It simply requires leadership 
and a commitment on both sides to building a truly new style of 
relations between the two nations going forward.
    Finally, the traditional conceptions and cadence of the 
relationship still are adjusting to the phenomenon that is the 
leadership of Xi Jinping. While certainly no strong man within 
the Chinese system, Xi is without question the most powerful 
Chinese leader to emerge in several decades.
    Although it is far too early in his tenure to be able to 
predict with any certainty the precise ramifications of his 
particular brand of foreign policy making, one thing is 
perfectly clear. Xi is not responding to the traditional 
messaging and cueing that being employed by the United States 
on issues such as tensions in the East and South China Seas, or 
at least he is not doing so in a way that the U.S. Government 
would like him to.
    This reality does not necessarily demand a specific set of 
policy responses from the United States, but it should give 
U.S. policymakers pause and a desire to reflect on whether, and 
how, U.S. actions may need to be recalibrated to deal with this 
fundamentally different approach from the Chinese leader.
    Turning to the prospects for economic reform inside China, 
it is fair to say that the reform progress has struggled in the 
first half of this year. And this can be ascribed to several 
factors including a recognition on the part of Xi Jinping and 
his economic team that the scale of the challenge is much 
greater and the resistance that they face is far more 
entrenched than they might earlier have assessed.
    Another factor is the pervasive fear that has been 
engendered among working level officialdom as a result of Xi 
Jinping's anticorruption drive. Officials have been in a near 
state of paralysis for fear that they may somehow be swept up 
in the campaign. Against this backdrop, few in the working 
level bureaucracy have been inclined to offer up radical reform 
proposals.
    Finally, the economy's sluggish performance also has acted 
as a drag on reform progress. This will provide all the more 
incentive for the government to adopt additional stimulus 
measures for the final quarter of the year in order to meet the 
leadership's ambitious annual growth target of 7.5 percent.
    Such pressures and practices risk crowding out the room for 
reform headway as officials, especially at the local level, 
single-mindedly batten down the hatches to be able to weather 
the storm that they are facing.
    Still, there are reasons to believe that prospects for 
reform progress at the end of this year and going into 2015 may 
be brightening. For example, it will be important for the 
leadership to set the right tone on the pace of reform before 
the Communist Party's economic planners begin focusing in 
earnest on drafting the 13th Five-Year Plan which will be 
approved at a fall plenum next year.
    And finally, let me turn to this issue of market conditions 
facing foreign companies operating in China. The environment 
confronting foreign companies doing business in China has 
changed substantially in the wake of the 2008 global financial 
crisis. In this year's business confidence study conducted by 
AmCham China, for example, 40 percent of respondents perceive 
that foreign companies are being singled out in the pricing and 
antitrust investigations that now are touching a very wide 
array of industries operating inside the country.
    There is no one clear answer concerning what may be driving 
these pressure tactics, though the pattern that emerges from a 
close look at the investigations being conducted suggests that 
they are motivated by some combination of an understandable 
desire to bring prices down, traditional rent-seeking behavior 
and some element of bureaucratic competition between the 
Chinese Government entities charged with overseeing the 
investigations.
    Still, these explanations though certainly part of the 
puzzle are dwarfed by a single, overarching priority of the 
regime, the preservation and strengthening of China's unique 
state capitalist system. In fact, the regulatory agencies 
appear to be designing a template with these investigations 
with potential applicability across a wide variety of 
industries.
    The specific measures taken will vary on a case-by-case 
basis, but it is likely to involve a combination of several 
techniques including the threat of price investigations to win 
concessions, the use of investigations often in tandem with 
well coordinated exposes by state-controlled media to mar the 
reputational standing of the targeted firm, and the provision 
of subsidies and the promotion of consolidation of domestic 
producers in the targeted industry to boost the competitiveness 
of designated so-called national champions.
    Going forward, we can expect that China will continue to 
use all the tools at its disposal including selective 
enforcement of rules, provision of subsidies, and technology 
transfer requirements to create an environment that unduly 
favors the development of its domestic champions.
    And with that I will cease there and yield back to the 
chair. Thank you.
    [The prepared statement of Mr. Johnson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                    ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Chang, you are recognized for 5 minutes.

             STATEMENT OF MR. GORDON CHANG, AUTHOR

    Mr. Chang. Chairman Chabot, Ranking Member Faleomavaega--
and I hope I pronounced that correctly and I apologize if I 
didn't----
    Mr. Faleomavaega. You said it just right, John Wayne.
    Mr. Chang [continuing]. And distinguished members of the 
committee, it is a privilege for me to appear before you today.
    Mr. Chabot. Just for the record, you mispronounced my name, 
but that is okay.
    Mr. Chang. I apologize.
    Mr. Chabot. It is Chabot, like in S-H, even though it is C-
H, but everybody mispronounces it, so there you go. So nobody 
can win around here, Eni.
    Mr. Chang. It is a privilege for me to appear before you 
today and I thank you for this opportunity. My testimony 
focuses on the highly discriminatory antimonopoly enforcement 
against foreign companies in China, and there are three reasons 
why we need to be concerned.
    First, China's obviously unfair application of its laws in 
this area is illustrative of common themes of foreign business 
in China. Second, this campaign complicates already 
deteriorating China-U.S. relations. And finally, the 
fundamental reason that Beijing engages in this campaign 
suggests that relations between China and the U.S. over the 
long term will remain troubled. And I will direct my testimony 
to the last point.
    There has always been some hostility in China toward 
foreign business, but new ruler Xi Jinping has taken it to a 
new level. So, for instance, in July of last year, the National 
Development and Reform Commission, which is one of three of 
China's competition regulators, forced these companies, about 
30 of them, into a room for 2 days and wanted them to write 
self-criticisms.
    Since then, the campaign against American companies has 
been unrelenting. Microsoft is the current target, but QualComm 
could be wounded, perhaps seriously, because China is targeting 
its most important source of revenue. And Time Magazine, in 
July, asked, is no foreign brand safe in China? And 
unfortunately the answer is, no brand is safe. And the question 
we need to ask is why?
    Well, many say that this is just a squabble over market 
share with increasingly powerful state enterprises wanting to 
take business away from foreign companies. Now of course there 
is more to it than that. The campaign against foreign business 
almost certainly is directed from the top of the Chinese 
political system, the seven-member Politburo Standing Committee 
of the Communist Party, because nothing this important in China 
could go on for so long unless it had approval from the top of 
the system.
    The campaign unfortunately is a frontal attack on foreign 
business and it brings to mind the xenophobia of the Maoist 
area because Xi Jinping has been conducting a series of Maoist 
inspired rectification and mass line campaigns since he took 
over as China's leader in November 2012. Now the use of 
Cultural Revolution style methods against multinationals 
suggests that this Maoist rhetoric is actually starting to 
affect Chinese governance.
    Now Chinese leaders are not acting pragmatically right now, 
that is because of the nature of the Chinese political system. 
And despite all the reform and progress that we have seen 
today, China is still driven by the need to seek to, first and 
foremost, legitimize the Communist Party. Xi Jinping, I 
believe, is trying to legitimize the Party not only by 
attacking foreigners, but also he is attacking foreigners to 
help him consolidate what I believe is a shaky political 
position at home.
    So political considerations are driving the Chinese leaders 
to go after us, and in all likelihood I believe that this 
campaign will intensify at least in the long term. The fault is 
in the nature of the Chinese political system which no Chinese 
leader is prepared to change. And in this highly charged 
political environment, it is not likely that China can maintain 
good relations with its neighbors, with the international 
community, with the United States. It is clear that considering 
everything that Xi Jinping will not stop this campaign until 
the U.S. Government impose costs on China that are greater than 
the benefits that China gets from discriminating against U.S. 
companies.
    With China's growing reliance on exports, Washington has 
the leverage to stop China in its tracks. For instance, last 
year, China's overall merchandise trade surplus against the 
United States which was a record $318.7 billion was a stunning 
122.7 percent of China's overall surplus. We can find other 
locations to manufacture goods, and in fact that process is 
happening already. But China cannot replace the U.S. market.
    We can protect our companies by limiting China's access to 
our market through special tariffs and other mechanisms but it 
is clear that we have to do something. Our companies and our 
workers are already bleeding. Thank you.

    [The prepared statement of Mr. Chang follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                     ----------                              

    Mr. Chabot. Thank you very much. Really excellent 
testimony. We were both just commenting on that. Very, very 
good. I will recognize myself for the purpose of asking 
questions for 5 minutes.
    Let me begin with you, Mr. Johnson. Since President Xi 
assumed power, it seems that we have seen a discernible change 
in China's behavior. It is more aggressive, more risk oriented 
and it seems pretty much impervious to U.S. pressure. As 
today's hearing title suggests, it seems we are entering a new 
era in U.S.-China relations. First, would you agree? And 
second, how can the administration recalibrate its strategy to 
more effectively deal with China's fundamentally different 
approach to foreign and economic policies?
    Mr. Johnson. Thank you, Mr. Chairman. It is my perception 
that indeed we are entering a fundamentally different period 
under Xi Jinping's leadership with regard to his approach to 
Sino-U.S. relations but also to China's foreign policy at 
large, and I think there are several reasons for that.
    The first is that unlike his most immediate predecessor, Hu 
Jintao, Xi Jinping is a very confident leader, someone who does 
command the system, has a deep political network that runs 
throughout the system, and has very strong views about how he 
thinks about China's place in the world. It was very telling, 
for example, when he was first revealed as the new leader of 
China. In his opening speech, which was very brief, he put a 
lot of emphasis on these concepts of the Chinese dream and the 
great rejuvenation of the Chinese people and China as a nation. 
And I think we see this stream running through his foreign 
policy approach.
    With regard to the U.S., I think the fundamental thing to 
understand in terms of how Xi Jinping approaches the 
relationship is that unlike his two predecessors who arguably 
spent between 80 and 90 percent of their foreign policy energy, 
or bandwidth, if you will, focused on Sino-U.S. relations 
whether those relations were good, bad or indifferent.
    Xi Jinping does not operate that way. His view is that he 
does not, of course he is not seeking to sort of diminish the 
status of U.S.-China relations, but he is not as solicitous or 
desirous of the relationship as his predecessors have been. And 
I think we have seen that time and again.
    So for as just one example, you had the Sunnylands meeting 
between our two leaders. Things seemed very solid in that 
meeting and a good opportunity for the two Presidents to be 
able to get to know each other and to think about how we might 
indeed go through this new style of major country relations. 
But since then we have seen this drift come in and traditional 
mechanisms like the Strategic and Economic Dialogue between our 
two countries, which in my assessment has become a fairly 
useless entity, we are not connecting on this level. And I 
think it is because when President Xi looks at President Obama 
he sees a leader who unlike himself is not confident, is not 
control of his own system, is not reliable.
    And in the long management of U.S.-China relations, the 
most important thing to the Chinese side is consistency. They 
will take a difficult position from the United States when 
necessary if they know that the leader is consistent, and they 
have real questions about the consistency in President Obama's 
approach.
    In terms of his broader foreign policy strategy and the 
things you mentioned with regard to his approach to the 
neighbors, what we see, I think, is a fundamental rejection, if 
you will, by Xi Jinping of the longstanding foreign policy 
dictum stated by Deng Xiaoping, which is that China should bide 
its time, keep a low profile, never take the lead 
internationally.
    It was very telling to me that when the Foreign Minister 
Wang Yi gave his first press conference in the spring at their 
national legislative session, when asked by the CCTV reporter 
in the audience, so obviously a planted question, how would you 
describe the success of China's foreign policy under the new 
leadership in the first year in office, he said, in a word, 
active, which tells us a lot. Because 35 years ago, no senior 
Chinese official would have described their foreign policy as 
active.
    So how should the U.S. respond to----
    Mr. Chabot. Can I cut you off here?
    Mr. Johnson. Sure. Yes.
    Mr. Chabot. Because I am almost out of time and I think Mr. 
Chang should respond to that question as well for a minute or 
two.
    Mr. Chang. I think that when Xi Jinping looks at Obama and 
Obama looks at Xi Jinping, he must think that the Chinese 
leader himself is unreliable, and the problem is of distress in 
the political system. June 26, Politburo meeting, Xi Jinping 
admits that his signature campaign against corruption, which is 
really just a political purge, was stalemated. And then he 
talked in melodramatic terms about his own death.
    Well, there have a been a number of coup rumors over the 
last 3 years, some of very recent vintage. We don't know a lot 
of what is going on, but we can see that there are things which 
are not consistent with a stable political system in China. So 
that I think is going to be driving U.S.-China relations.
    Mr. Chabot. Okay, thank you very much. My time has expired, 
and I will recognize the ranking member, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. To counter the 
U.S. pivot to Asia, China is aggressively pushing for free 
trade agreements within the Asia-Pacific region which include 
South Korea and Japan, and looking somewhat of a maritime Silk 
Road, if you will, it will also create free trade agreements 
with Southeast Asian countries.
    I would like to ask both gentlemen of what significant 
impact will this have on the United States especially within 
the administration's ongoing efforts with the Trans-Pacific 
Partnership initiative?
    Mr. Chang. Obviously I think there is going to be 
competition between the United States and China. China's trade 
with the region certainly has grown dramatically with all of 
its neighbors, but I think that to a certain extent we are 
seeing troubles in the Chinese economy itself. It is not 
growing at the 7.5 percent that Beijing claims. It is probably 
closer to 1 or 2 percent.
    And I think that we are going to see a decrease and a 
decline in Chinese trade with its neighbors despite all of 
these free trade agreements. The Trans-Pacific Partnership 
concept is very important for the United States because when we 
talk about the pivot we often think about military means, but 
really the most important part of the pivot is the Trans-
Pacific Partnership because that will be there for generations.
    Mr. Faleomavaega. Mr. Johnson?
    Mr. Johnson. I would just add briefly to that by saying 
that the TPP really is the fulcrum of the rebalance in the 
region. And in the Asia-Pacific region, economics is security. 
That is how the countries in the region view it. And so without 
TPP there is no economic counterweight to what China has been 
doing, and then this often will end up driving some of their 
behavior toward the Philippines, toward Vietnam.
    I think the assessment sometimes in Beijing is, why 
shouldn't be assertive with this when ultimately these 
countries will have to knuckle under because of their economic 
dependence on China? Likewise, I think it is the best way that 
we can signal to the region that there is truth, there is 
action behind our rhetoric with regard to our statements about 
being in the region for the long term.
    Mr. Faleomavaega. There are at least 11 independent Pacific 
Islands nations, each have a vote in the United Nations. It is 
no secret that China, in 2009 alone, gave over $200 million in 
aid to these Pacific Island countries. Is there a connection 
between the U.N. votes and the increased aid, and, if so, does 
this pose a security threat to our interests, Australia, as 
well as New Zealand?
    Mr. Chang. I believe there are 14 U.N. votes in the 
Pacific, and this is, I think, one of the important things for 
China. Clearly it was important for China's initiatives toward 
Africa and Latin America. And to the extent that the U.N. is 
relevant and that changes day by day, then of course this is 
going to be important because the U.S. will be outvoted in the 
General Assembly time after time unless we have much better 
relations with countries in the Pacific.
    And one important thing on that is that China's relations, 
economic relations, are not always to the benefit of those 
islands and those nations. We need to have better trade. This 
is something that we can really win.
    Mr. Faleomavaega. Mr. Johnson?
    Mr. Johnson. Yes, I would agree with that and simply add 
that this is another area, while not affecting those islands 
where TPP is so important in terms of getting a U.S. style 
standard involved in a lot of these free trade agreements, 
because what we see with the Chinese is a lot of direct buying 
of influence with these countries through economic projects and 
so on.
    Mr. Faleomavaega. I don't have the exact geography of the 
situation in the Pacific region, but I know that the compact of 
these Pacific Island countries compose at least a vast part of 
the world's geography as far as sea bed minerals, marine 
resources. Do you think the United States should pay a little 
more attention to the situation there in that region?
    Mr. Johnson. Absolutely.
    Mr. Faleomavaega. Okay. I am sorry, my time is up. Thank 
you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. Faleomavaega. The 
gentleman from Calfornia, Mr. Rohrabacher, is recognized for 5 
minutes.
    Mr. Rohrabacher. I have often told people who want to 
invest in other countries and do business and then they come to 
me and they want different type of trade agreements that would 
facilitate their commerce in other countries, I always say that 
I do believe in free trade, but I believe that in free trade 
between free people. And that when you have a free trade system 
with a dictatorship or with a country that is run by a clique 
as we seem to see in China that the trade will be manipulated 
in order to enrich the clique.
    And is what we have is a basically a clique in China that 
is, I noticed there is so many more millionaires being created. 
If you are in the clique you have opportunity and freedom, if 
you are out of the clique the system will work against you? Is 
that what we face there in China?
    Mr. Chang. That is certainly the case that we face in 
China. Just today I heard the story of a U.S. investor, Susan 
Weinstein, whose investment was completely taken away by 
Shanghai gangsters. So this is the clique at work.
    China's trade behavior, since it joined the World Trade 
Organization at the end of 2001, has deteriorated over the last 
3 or 4 years in very ways that are troubling. Because we were 
always told that China would become a good trader, would become 
a part of the international system, well, in effect, over the 
last 3 or 4 years it has gotten much worse, and so therefore 
there is a problem.
    And if I may say so, I think that China's desire, the 
Communist Party's desire for control, which has manifested 
itself on these antimonopoly investigations, is the same desire 
for control of Christians and other people of faith in China.
    Mr. Rohrabacher. I guess you might call this what we are 
describing as the ultimate crony capitalism, which is, in other 
words some people believe crony capitalism is actually fascism 
which is another way of expressing that.
    If American companies invest overseas, and now we have this 
example where foreign companies are being targeted for 
aggressive legal action, I don't think this should surprise 
these businessmen. I mean you go and you invest in a country 
that does not have an independent court system, am I correct in 
assuming that if there is a business disagreement or if the 
government has something to do that the court system is not in 
any way a fair or free court system there?
    Mr. Chang. The last thing that I did, Mr. Rohrabacher, 
practicing law in Shanghai, was involved in a multiyear case as 
a representative of a foreign bank against a local company. And 
the odds were stacked so much against us it was not a fair 
fight and, accordingly, we ended up on the short side of the 
stick. But this experience is just replicated thousands of 
times a year.
    Mr. Rohrabacher. Well, we know that China is not only 
condoning but, actually, the government of the clique that runs 
the country is actually participating in the theft of American 
intellectual property rights and cyberattacks, et cetera.
    American businessmen who have been insisting on a free 
trade approach with this type of country, I hope they don't 
come to us now pleading with us to help them out. By investing 
overseas, an American company that invests overseas in order to 
make a 20 percent profit rather than investing here and making 
a 10-percent profit have basically betrayed the American 
people. Working people in our country who go to war, pay their 
taxes, insist on honest government, and those honest citizens 
here who expect perhaps those people with more money in our 
society to take their well being into consideration when making 
business decisions.
    Well, the fact that those companies have gone over there, 
they are getting their comeuppance and they should have watched 
out for what we Americans hold dear in the first place and they 
wouldn't be so vulnerable. So I would suggest, Mr. Chairman, 
that we not go out of our way to protect the American companies 
that are now in jeopardy in China.
    Mr. Chabot. Thank you very much. The gentleman yields back. 
The gentleman also from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Thank you, Mr. Chairman. Thanks for calling this 
incredibly important hearing. From what both the witnesses have 
described, China clearly is at a crossroads and over the past 
few years it has been at a political crossroads, an economic 
crossroads. Yet, China's importance to the region in terms of 
trade with regional partners, Japan, Korea, the Southeast Asian 
nations, and obviously the importance of being a trading 
partner with us also has grown.
    China has to make some decisions now. And I think Mr. Chang 
you touched on one of the leverage points that we have. Because 
of China's dependence on exports and their dependence on 
exports to the United States, yes, there probably are 
opportunities for us to leverage that reliance on exporting to 
us.
    So one of my questions, and then one of my thoughts and 
then I would let the comment here, within this committee we 
have looked at North Korea and some of the challenges that we 
face in North Korea and the importance of needing a regional 
approach and China's importance in leveraging North Korea to 
become a more responsible player in the world.
    How would, just again thinking, through knowing that you 
have written a book on North Korea as well, how we could 
leverage that again China has to be an important partner as we 
approach North Korea, and approach it not as a U.S. versus 
North Korea, but the United States with Japan, with Korea, with 
China, with Russia, to leverage on North Korea?
    Mr. Chang. Historically, China has had the most influence 
in North Korea, but in recent years, especially the last year, 
China has had less influence in North Korea than us. And so 
therefore I don't think we need the Chinese to implement our 
policies toward Pyongyang. It is a very much of a change of 
attitude on the Kim regime, but clearly relations between 
Beijing and Pyongyang have broken down. The United States can 
act on its own in this case.
    Mr. Bera. Should China though be a partner in this at all? 
Do you think they can be a partner?
    Mr. Chang. We have tried that approach for a decade and 
didn't work. I don't know if it is going to work now, 
especially with the problems inside Beijing.
    Mr. Bera. Okay.
    Mr. Johnson. My personal view is that there is more 
opportunity with the Chinese than there has been in many, many 
years with regard to North Korea. We have seen that Xi Jinping 
has taken a somewhat different approach. There has been a lot 
of commentary in air and ink spilled about whether or not China 
has changed its policy. Fundamentally it hasn't. It is still 
what keeps the North Koreans going on a day-to-day basis.
    But what we do see is, as Gordon just suggested, a sort of 
fundamental difference of opinion now between the two 
leaderships. The one thing that frankly where roping them in as 
a partner is an important piece, is that they are very much 
embarked on a campaign now of seeking to peel South Korea off 
from the alliance with the U.S. and Japan. And we saw this most 
recently with Xi Jinping's visit to South Korea earlier in the 
year.
    And this is something that we the United States need to be 
very mindful of and think about how we can leverage not only 
our relationship with South Korea, but also Chinese concerns 
about North Korea to try to manage that process.
    Mr. Bera. If we shift now to some of the tensions that 
occurring based on Chinese actions in the East China Sea and 
the South China Sea and some of the unilaterally provocative 
moves raising tensions between China and Vietnam in very 
important trading routes, and then the same thing with the 
Senkaku Islands in raising tensions between Japan and China, 
and then obviously the ADIZ unilateral expansions. Again I 
think all of our regional allies are looking for the United 
States to make sure we are standing strong there and sending a 
very strong message.
    And I would be curious again how we push back. Because 
again if these unilateral decisions that China is making go 
unchecked, they have somewhat of a propensity to continue 
moving the ball down the field.
    So Mr. Johnson?
    Mr. Johnson. Yes. It is, in fact, one of the things that is 
maddening about some of these moves that the Chinese are making 
is that they are very hard to counter in a sophisticated way. 
One of the challenges is that I believe the Chinese have made 
the assessment that with regard to how to manage these kind of 
salami-slicing tactics that we have been seeing from them, they 
understand that the U.S. tool kit is actually fairly limited. 
We have rhetorical responses which we have been using, and we 
have the 7th Fleet. And between there is not a whole lot that 
we can be doing.
    One area though is in the space of improving maritime 
domain awareness for the littoral countries. This is 
inexpensive from a U.S. point of view and also will help create 
a more common picture and understanding of what the Chinese are 
doing with regard to their reclamation of these atolls and so 
on.
    Mr. Bera. All right. And I think I am out of time.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Arizona, Mr. Salmon, is recognized, who is 
also the subcommittee chairman for the Western Hemisphere.
    Mr. Salmon. Thank you very much. And what is really 
fascinating is that I do not speak Spanish and I am the 
chairman over the Western Hemisphere. I actually speak Mandarin 
Chinese, and it doesn't go very far when I go to Mexico.
    But anyway this is my second stint in Congress. I was here, 
in fact, Mr. Chabot and I were elected the same term, 1994----
    Mr. Chabot. Twenty years ago.
    Mr. Salmon [continuing]. During the great Contract with 
America. And I came at a time when every summer we would have a 
debate on Jackson-Vanik and we would be kicking the stuffings 
out of China every July. And I became a very strong advocate of 
PNTR, and I became a very strong advocate of them entering into 
the WTO.
    I was in Seattle at the time a lot of that was happening 
when they were throwing the chairs through the windows, and I 
was there at that time. I had been over to China probably over 
40 times, and many of those visits I have stayed for as long as 
a couple of months so I know a little bit about China. I 
couldn't be more profoundly disappointed in the predictions 
that I made if China was to get PNTR as far as being a good 
trader and our values maybe rubbing off on them.
    I remember making the argument, I think the most valuable 
export that we have to China is not to any of the commodities 
or services but it is our ideals and it is freedom. And I 
believed at that time that a lot of the human rights issues 
would become better, that religious freedom would improve.
    And I am sad to say that was over a decade ago and it has 
not. And in many ways, Mr. Johnson, you said it is worse, and I 
agree. And I think the aggression has become worse. Now our 
President at the first of this year said that he and his 
administration would make a pivot to Asia. How is that working 
out? Is the pivot being made?
    Mr. Johnson. Well, certainly in terms of the rhetorical 
pieces of the pivot we have had some execution, but I can tell 
you that when I travel to the region I am constantly asked by 
our regional partners and allies, when is it going to 
materialize? When are we going to see some----
    Mr. Salmon. That is what I am wondering too.
    Mr. Johnson [continuing]. Meat on the bone, if you will----
    Mr. Salmon. Yes.
    Mr. Johnson [continuing]. With regard to how it works. And 
as I mentioned just a moment ago, things like focusing on 
building this maritime domain awareness net, enhanced 
intelligence cooperation, for example, with allies and partners 
in the region, these are real things that we can be doing with 
our partners that we aren't, to make this pivot real.
    I also would just underscore again what both Gordon and I 
suggested with regard to TPP and the importance of that in 
terms of balancing the rebalance, right?
    Mr. Salmon. Well, right after the President spoke in his 
State of the Union and said that TPA and TPP were extremely 
important, the majority leader on the other side said, over my 
dead body. And there has been, really, no push from the 
administration to move over that.
    Mr. Johnson. Well, this is a fundamental challenge. I mean 
I have yet to see a legislative strategy from the 
administration----
    Mr. Salmon. Exactly.
    Mr. Johnson [continuing]. In moving TPP forward.
    Mr. Salmon. And it is very, very frustrating. I have a 
specific question. Because when I left in my private life, one 
of the things I did was I became the CEO of a company that was 
manufacturing its product over in China and it actually had 
patents all over the world filed.
    And we had a really interesting phenomenon happen in China, 
and that was that when we filed our patent in China we had some 
bad actor cross file, and then what he did because the courts 
were colluding with him, what he basically wanted was extortion 
money. Buy him off for several million dollars so that he would 
go away. Do you see a lot of that?
    Mr. Johnson. Constantly. And this is one area where, the 
main problem in these litigations is that the local court is 
appointed, paid and overseen by the local party, provincial 
administration. And if the key SOE in the province is the one 
you are up against, guess who is going to win the court case? 
It happens this way every time.
    And so this is something where we are watching carefully. 
They will have their plenum here in a couple weeks. The 
official theme is supposed to be Rule By Law, so it will be----
    Mr. Salmon. And while the central government has passed 
some very robust laws regarding IP violations, the problem is 
there is no enforcement.
    Mr. Johnson. Local enforcement, yes.
    Mr. Salmon. There is no enforcement. And when you get down 
to the provincial levels, they are doing their own thing and 
they don't answer to the Federal Government, and so, really, 
nothing has really changed. In fact, it is as bad as it has 
ever been. Is that correct?
    Mr. Johnson. That is my assessment.
    Mr. Salmon. What would you say, Mr. Chang?
    Mr. Chang. That is certainly correct. And it is because 
there is, the Chinese central government if it wants to do 
something it can find Falun Gong practitioners in some upland--
--
    Mr. Salmon. Exactly.
    Mr. Chang [continuing]. Remote place thousands of miles 
from Beijing, but it can't enforce patent infringements in 
Beijing. If I just may so, I think that American trade has 
affected the Chinese people. The Chinese people now think very 
much the way we do on the issues that you talk about, it is 
just that the Chinese political system has gone the other way. 
And so that is, I think, the paradox.
    Mr. Salmon. Thank you. I am out of time. Would love to talk 
with you a lot more. It is good stuff.
    Mr. Chang. Thank you.
    Mr. Chabot. The gentleman's time has expired. Is the 
gentleman ready? We are doing a second round and we will start 
with Mr. Sherman.
    Mr. Sherman. Only in America would we ignore this enormous 
trade deficit and focus instead on whether the Japanese get a 
few islands, excuse me, rocks that we mischaracterize as 
islands.
    I don't know if either of you can answer this. Why is that 
Germany is able to run a trade surplus with China, whereas we 
run the world's, the largest trade deficit in the history of 
mammalian life?
    Mr. Johnson. I am going to largely defer to Gordon on this 
one, but I would simply suggest that it is because the Germans 
still make things. But----
    Mr. Chang. I would like to defer to Mr. Johnson, but since 
he has already started, I think that the most important thing 
is that the United States has become strong by having open 
markets.
    Mr. Sherman. No, the United States has become weak by 
having open markets. You are not in touch with the working and 
middle class families that have been decimated while the grad 
school educated elite in the country does so well. This has not 
been a period of strength for America. This has been a period 
of decimation for our families.
    So you can continue.
    Mr. Chang. The problem is that China has become much more 
mercantilist as I mentioned before and trade behavior has 
deteriorated. And it is a paradox for the United States because 
it is a very difficult problem in that the sense that we do 
believe in open markets and yet you have a predatory trader.
    And the question is, how do you deal with that one trader 
while still keeping the markets open which we believe to be 
important? And it is, I think, because there has been 
ineffective enforcement on the part of various administrations 
to Chinese behavior, because we have always thought they would 
get better. But over the last 3 or 4 years they have gotten 
worse. And so I think that we need to actually start to look at 
some much more punitive measures to make sure that as I said 
before that we impose costs that are greater on them than the 
benefits that they get by being mercantilists.
    Mr. Sherman. Well, I think you misunderstand the gravity of 
the situation. Every year they become another $300 billion 
richer and we lose 2 million to 3 million jobs.
    Japan is happy to have us expand our military spending to 
defend islets that they hope will have oil which they will not 
share with us. And of course they exaggerate the importance of 
these. What is the Japanese military expenditure as a 
percentage of their GDP?
    Mr. Chang. One percent, I believe.
    Mr. Sherman. I believe it is way less than 1 percent, isn't 
it? Isn't 1 percent a ceiling they aspire to?
    Mr. Chang. You very well may be----
    Mr. Sherman. So now these same families that have been 
decimated should pay higher taxes to the Federal Government so 
that we can make sure to have a strong naval presence to defend 
the oil that doesn't exist which will accrue to a nation that 
isn't willing to spend its own money. We have decided to be 
hawks on Japanese rocks and doves on trade. This meets the 
institutional needs of Washington and the Pentagon and Wall 
Street, and obviously is part of an overall program that has 
decimated American working families.
    I will yield back in hopes of an interesting second round.
    Mr. Chabot. Okay, the gentleman yields back.
    Let me start with you if I can, Mr. Chang. You had 
mentioned the $318 billion deficit that we have with China, and 
I think I share a lot of concerns with Mr. Salmon, because we 
supported, what was at that time PNTR, which then became normal 
trade relations and other things. What can we really do? If you 
were King, what would you do to deal directly with that $318 
billion trade deficit that we have with China?
    Mr. Chang. Well, the one thing that I would do is I would 
get on the phone with Xi Jinping and say that if he didn't stop 
XY and Z that essentially the U.S. would start inspecting goods 
at the Port of Long Beach. And that way the container ships 
would be lined halfway across the Pacific.
    And I know that some people believe that rigorous 
inspection of Customs is a WTO violation, but nonetheless, 
these guys play very hard and I think that we should play as 
hard with them as they play with us. We have to remember that 
the Blair-Huntsman Commission talked about a special tariff 
because of Chinese intellectual property violations. And indeed 
a special tariff, I think, would be something that could work 
in a number of different areas, and so therefore it is one of 
the things that we should look at.
    But as long as we only talk about these things and don't 
actually impose costs, we will never have any progress with the 
Chinese on trade issues.
    Mr. Chabot. Thank you. You mentioned that you would say 
unless he does XY and Z that we are going to do these things. 
What would X or Y or Z be? What are the things that we really 
ought to demand from him?
    Mr. Chang. Well, I think the thing that is most important 
would be the subsidies that China gives to its manufacturers to 
give them an extraordinary advantage, not only in global 
markets but in China's own market of course. The list changes 
day by day. I mean 1 year ago we would not have been talking so 
much about the antimonopoly investigations, but now of course 
they are the topic du jour.
    This list is going to change, but the list is comprehensive 
and we could come up in short order with a list of about 30 
things that need to be done. And I would be happy to do that 
for the committee if they so request.
    Mr. Chabot. All right, well, thank you. I think we will 
request that. So we appreciate that very much.
    Let me ask both of you this. You suggested one method to 
mitigate the Chinese offensive against American companies is 
for companies finding other locations to manufacture their 
goods, and that is going to take some time for that to happen. 
You referred to it as a frontal attack on foreign businesses. 
At what point do the foreign businesses either realize this or 
does it no longer become, maybe not unprofitable, but not 
profitable enough to take all this grief from China? Are we 
approaching that point or did they make enough money now that 
they are willing to put up with the garbage that they are 
putting up with?
    So either one of you or both of you.
    Mr. Johnson. I will just offer a couple brief remarks. I 
think that what we can say is that American firms, European 
firms, other firms operating in the country certainly have 
noticed that the environment has become much more difficult. I 
think it is fair to say that 5 years ago when firms were 
considering an investment in China, the discussion at the board 
level was rather simpler. It is China, it is huge, we have to 
be there, go.
    Now I think firms are taking the opportunity to think more 
deliberately about what might we get out of this particular 
investment? What type of return might we be able to receive? 
What will we give away both voluntarily and involuntarily 
through cyber and other issues that we worry about? And are we 
in an industry that it would actually make sense for us to be 
operating in this current China landscape that they face?
    Mr. Chabot. Thank you. Let me ask you this, Mr. Chang, 
because I have only 1 minute to go. You mentioned when the 
Chinese Government pulled these 20 American corporations, I 
think?
    Mr. Chang. There were 30, and they were mostly American but 
there were others as well.
    Mr. Chabot. All right. So could you tell us a little more 
about that? What happened, where was it at and what were they 
demanding of these people?
    Mr. Chang. There were two series of meetings. There was one 
set of meetings for Chinese companies. There was another set of 
meetings for foreign companies. Both sets of meetings were 
conducted in Chinese so there was no need to have two sets of 
meetings. And, essentially, over 2 days, what the NDRC, the 
National Development and Reform Commission, did was wanting to 
force them to write confessions and essentially to agree to 
fines for violations of the antimonopoly law, and companies of 
course resisted.
    To answer your other point, foreign direct investment is 
starting to fall in China. In July it was down 17.0 percent. I 
forget the figure for August. But it is not only the falls in 
July and August, but also for 2014 as a whole FDI is down. This 
is the first time this has occurred since China joined the WTO 
in 2001.
    Mr. Chabot. I am out of time, but do the Chinese realize 
that this could have the opposite effect that they desire? That 
they may end up shooting themselves in the foot?
    Mr. Chang. I think they do realize that, but I also think 
that they can't do very much about it because of Chinese state-
owned enterprises being too powerful within the Chinese system. 
And so I think senior leaders, like Li Keqiang, the Premier of 
China, can talk about this issue but there is very little he 
can actually do about it.
    Mr. Chabot. Thank you very much. My time has expired. Mr. 
Faleomavaega is recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I am trying to 
think in terms of some of the questions and issues that were 
raised in our hearing this afternoon. It took American 
democracy over 200 years to develop where we are now, and I was 
wondering that there is an American Indian saying, walk in a 
man's moccasins before you make judgment.
    China has 1.5 billion people. It is one of the two most 
populous nations in the world. And even India, if you talk 
about it, there are tremendous opportunities as well as 
responsibility. How do you go about in getting a system of 
government that will address the means or the issues of some 
1.5 billion people, not million, billion?
    And I want to raise this issue with both of you gentlemen. 
If you were in the President of China's seat, what would you be 
doing or saying to provide, to feed 1.5 billion people? Now I 
know that it seems that our whole interest it seems to be 
emphasized on strategic and military, but what about 
considering the social issues that the Chinese people and their 
leaders have to confront? What do they have to do in order to 
survive?
    It is very easy for us because we are the most powerful, we 
have the biggest economy in all of this, but it took us 200 
years to get where we are now. So I would be happy to hear your 
comments on that concern.
    Mr. Chang. Well, China took 5,000 years and is still 
working at it. If I were Xi Jinping, I would think that the 
Communist Party system has basically run to its limits. It is 
very much, it cannot really progress very much further within 
the authoritarian system. And I would open it up for elections. 
I would have very much fewer regulations on business. I would 
get the state of business by privatizing state-owned 
enterprises.
    But fortunately or unfortunately I am not the leader of 
China, and he is absolutely resistant to all the things that I 
just talked about.
    Mr. Johnson. I would simply add that this is probably the 
core challenge that the Communist Party leadership faces going 
forward. You have a very stovepiped and rickety Leninist system 
riding atop one of the world's most dynamic countries and 
whether or not the Party leadership can reinvent themselves in 
some way.
    And I really think it speaks very much to what Mr. Chang 
just said with regard to we are not going to see the type of 
reform and progress we want to see until the Party is able to 
step back from the economy, and so far that is just something 
they have not been willing to do.
    Mr. Faleomavaega. How would you then compare the 
socioeconomic interests of the Soviet Union, or what we now 
call Russia, in terms of the development that they have taken? 
Is it more a free market oriented or are they still having 
problems with Lenin and the ideologies involved in that?
    Mr. Johnson. They don't have troubles with Lenin, they have 
troubles with mafias. It is an even more crony capitalistic 
system than that you might see in China.
    Mr. Faleomavaega. Mr. Chang?
    Mr. Chang. What we see in both places was the Soviet Union 
looked to be more vibrant than it actually was. I think China 
is less vibrant than it appears to be. China's problem right 
now is that it has run up enormous amounts of debt. It has put 
in enormous amounts of stimulus since the end of 2008 to avoid 
the effects of the global downturn. And so it does have 
critical threats to its economy, but they are very different 
than the ones that faced the Soviet Union at the end.
    So essentially you have a political system that is 
dominating the economy that is not allowing the actors in the 
economy to do what is absolutely necessary to create 
sustainable prosperity.
    Mr. Faleomavaega. Two of the most populous nations in the 
world are side by side, and I am talking about India and China. 
And there seems to be a development ongoing in trying to figure 
how they can provide programs that will naturally benefit them 
economically. Do you think the United States should have a 
policy in promoting better economic relations with China as 
well?
    Mr. Chang. I think that we should have a policy which is 
much more focused on India. It is a democracy. We share values 
with them. We also face a belligerence of China and so we do 
face common threats. But I think the most important thing is 
values and then that will create a stable relationship. The 
United States has not had a stable relationship with a large 
authoritarian nation ever, and I don't think that what we are 
trying to do now is capable of success.
    Mr. Faleomavaega. Mr. Johnson?
    Mr. Johnson. I would note that what is interesting, 
especially with now that Mr. Modi is in as Prime Minister of 
India, certainly, and has a track record of holding very strong 
and negative views about China, but yet we see that the two 
leaderships are trying to court each other in this early 
process.
    I would simply emphasize that for the United States, the 
main thing for us to remember is India will never agree to be 
part of some sort of pincer movement to surround China. The 
economic relationship is too strong. And so we have to be 
mindful of the limits of how we might be able to----
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Virginia, Mr. Connolly, is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, and I have an 
opening statement I would ask be entered in the record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Connolly. I thank the chair.
    Mr. Chang, I would like to pick up on something that just 
intrigued me the way you put it. That China's Communist system, 
Communist political apparatus, has maybe kind of run the clock. 
I mean it is time out. It is over. I wonder if you could go 
into that just a little bit more, because two things strike me 
about China. One is, there is a sense, almost an obsessive 
sense of the need for order, and order historically flows from 
Beijing. And they have good reason given just 20th century 
history why one might abhor the opposite of order, the chaos of 
revolution and individual militias and of course the Japanese 
occupation and then the virtual civil war between the 
Kuomintang and the Communists led by Mao.
    So does that, if I am right about almost, well, an 
obsessive concern about order given their history, does that 
not give the Communist Party some more rationale on staying 
power than otherwise might exist in other countries where 
Communism, in fact, govern?
    Mr. Chang. I think that a desire for order gives a 
government strength, but only up to a point and they have 
passed that point. What is important right now is that the 
Communist Party no longer inspires the Chinese people, and the 
increasing expenditure on internal security, I think, is a 
symptom of decline.
    The other reason why the Chinese Communist Party has run 
out the clock is essentially economic. What they have done is 
they have created massive amounts of debt, perhaps as much as 
between 15 to 30 percent a year increase in debt over the last 
5 years, and they have not been able to create growth that is 
sufficient to pay back that debt.
    So China is on the edge of a debt crisis, plus also a 
property meltdown which is what we are seeing at this present 
moment as property markets across the country decline. So 
essentially the problem is fundamentally economic, but it 
underlines a political problem of not being able to inspire the 
Chinese people.
    Mr. Connolly. Did you want to comment? You were shaking 
your head, Mr. Johnson.
    Mr. Johnson. I take a somewhat different view. My own view 
is that the Communist Party in China has proven itself to be a 
very flexible and resilient entity. And that while they do face 
a lot of these challenges, one thing that distinguishes them 
from some of the other Communist systems, especially the Soviet 
Union, that have existed is that they are far more aware about 
the problems going on inside the country than their Soviet 
counterpart was. They are far more aware of that.
    And we see them historically being willing to take very 
pragmatic steps to keep the wheel turning. I do think there is 
a question under whether this new leadership under Xi Jinping 
where he has really emphasized control and almost a sort of 
looking back toward an earlier era of ideological 
indoctrination, whether or not that is the right course for 
them to be taking.
    Mr. Connolly. But I think implicit in Mr. Chang's 
observation is the fact that perhaps in a high tech, knowledge 
based economy you have got to have unclad, unfettered ideas, 
unfettered expression of ideas, unfettered exchange of ideas.
    Mr. Johnson. Correct.
    Mr. Connolly. And that is antithetical to any authoritarian 
system, especially a Communist system. And so buried in his 
comment, I think, is a prediction that even if you don't agree 
that the Communist system is rickety, corrupt and lacking in 
legitimacy, increasingly, nonetheless the driver of a 
contemporary economy is just running headlong into that 
structure and one or the other has to give.
    Mr. Johnson. Yes. Precisely so. I mean this is one of the 
challenges they are facing now, right, is their problem with 
innovation. And I would like to remind Chinese friends that for 
5,000 years of their history they didn't have a problem with 
innovation and then the Communist Party took over and suddenly 
they have had some difficulty with it.
    Unfortunately the practical ramification of that, I would 
argue, is that they know that in order to solve a lot of the 
problems that Mr. Chang has referenced in their economy, they 
do need to move up that value chain much faster than they 
previously had assessed. Given the challenges that that system, 
the restraints that it puts on innovation, unfortunately for 
things like cyber, I think it sends all of the incentives in 
the wrong direction and we should plan on seeing it increase.
    Mr. Connolly. Yes, good point. Mr. Chang, I invoked your 
name and characterized your comment. Did you just want to add 
to that in terms of the knowledge based economy?
    Mr. Chang. The problem is that manufacturing is becoming 
more expensive in China. They are losing low end manufacturing 
but they are not able to move up the value chain fast enough to 
replace what they have lost. And that is going to be the 
critical dynamic in China's economy going forward.
    Mr. Connolly. Thank you. Thank you both. Thank you Mr. 
Chairman.
    Mr. Chabot. Thank you. The gentleman's time is expired. The 
gentleman from Georgia, Mr. Collins, is recognized for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman. I am not sure what is 
going on today. It is just a privilege for me to be following 
my friend from Virginia everywhere, but let him know that I am 
following him as we go. It is good to be--he can take that and 
he will understand as it goes, and we have had a good time.
    This is a concern, and I agree, I am glad of the hearing 
here, Mr. Chairman, and I appreciate you calling it. As 
recently returned from China and speaking to, dealing 
especially from my position in judiciary and intellectual 
property and intellectual property courts, we had a lot of good 
discussions with the intermediate courts in speaking in 
different areas.
    What was amazing to me was is while we were there dealing 
with antitrust and dealing with these kind of, the monopolistic 
provisions, all across the front page of the very, I guess, 
fairly stated propagandistic China Daily, today was the issue 
of they are going after Mercedes Benz and others and after 
market parts.
    The interesting part was is they were not really attacking, 
in all fairness, the status of what they have and their market 
share, what they were trying to do is negotiate price. And this 
is where, I think, we have got to come back. Because just in a 
matter of a few days, the companies all lower their prices and 
is amazingly how it all goes away. So you can't have a 
monopolistic or antitrust violation that goes away with a price 
decrease. If that would be, then you would have a lot of 
different issues in this here.
    I think the interesting thing that I love to hear is 
companies in the competition clauses and other things, and then 
we can get into trademarks. There is so much from a rich 
environment here and a judiciary aspect that is costing our 
companies in--what I thought was very interesting was to 
hearing from some of them that Wallway and several others were 
actually moving facilities out of China because they were 
concerned about their own intellectual properties being taken 
to other companies and stolen with inside the country, so they 
were actually moving them off on a quasi-state-owned basis.
    So how do we encourage China? And I know probably some of 
it has been discussed here. This was the part that came across 
very clear in discussion with the businesses but also with the 
business community, American business, foreign business 
community in China and also with the Chinese themselves and the 
government.
    How do we encourage a sped up growth rate, if you would, to 
be understanding of intellectual property in an international 
understanding, not just a nationalistic understanding? It is 
amazing their intellectual property courts are flooded with 
their own cases. There are very few, actually, from foreign 
companies.
    So I want us a little open ended here for a moment. How do 
we encourage them to do that in a productive way? How do we 
encourage them to be a part of this process and give our 
companies the assurances that when they do go, because they do 
want to invest over here. We want to have reciprocal 
investment. How do we do that?
    Mr. Chang. I think that we have tried to do that over the 
course of about three decades, and virtually everything that we 
have done has failed. So I don't think that you can do that in 
a nice way. And as I said, we have to start imposing costs on 
China because that is the one thing that they do understand.
    So unfortunately the engagement process just has seriously 
failed, and we are seeing that day after day with so many 
problems not only in the intellectual property area but in the 
antimonopoly and other areas as well.
    Mr. Collins. And one of the issues here, I think, that you 
get into and this is one that we are switching, same gear, is 
their exchange rate, their monetary system, this is another 
issue. And just recently if you were just looking, their growth 
rate is cooling off and they are having trouble sustaining this 
stimulus based growth and they have actually done a little bit 
of movement in how they are handling it.
    But there are many of us who look at this area in China and 
think that this is not just a short term problem, when you look 
at their growth, you look at the empty rates in buildings, 
these kind of things. Where do you see the next step for them 
going knowing that they are not going to hit their mark at 
least realistically but they may artificially try to, how 
through exchange, through other things, what do you see? 
Crystal ball it for just a second. What do you see them doing 
next?
    Mr. Chang. They don't have any solutions. What they did was 
they poured a massive amount of stimulus into the Chinese 
economy beginning at the end of 2008. It created growth at 
first, but now it has created a debt which they can't pay back. 
They are probably growing now at about 2 percent when you look 
at independent data, corporate profit results and even official 
numbers.
    So I think they have run out of answers and they know that. 
And the reason we can see it is that they can't do anything and 
they haven't done anything in the last year or so. So they are 
stuck.
    Mr. Collins. Well, and I think, and not to, inside anything 
in this, but I think it is also to me looking at it, I think, 
from a very positive, from a market standpoint, from an 
American, how we can have a positive relationship here. And as 
long as we don't turn to a nationalistic interest, which is 
definitely a concern here, rally the troops, we will go after 
the Straits, we will do those kind of things, is in looking at 
how we can continue to have the process of them investing here 
and we investing in their, and having that mutual exchange 
where you have a southern part, the Hong Kong, Shenzhen, 
Guangzhou, those areas down there, the Guangdong province that 
have basically become a more Western economy and with all that 
is good and bad about that.
    And I think that is going to be an interesting, would be a 
great time as we continue these hearings, Mr. Chairman. I 
appreciate your leadership. I appreciate you all being here. We 
could go for a lot of time but I appreciate your answers.
    Thank you. Mr. Chairman, I yield back.
    Mr. Chabot. Thank you very much. The gentleman's time is 
expired and we will conclude with the gentleman from 
California, Mr. Sherman.
    Mr. Sherman. I would like to explore the political 
vulnerability of the Chinese Government. This is a government 
which over the last 50 years has provided more economic growth 
than just about any in world history. They have now turned to 
nationalism to justify their position. Our institutions in the 
United States survived the Depression, the Great Recession.
    Mr. Johnson, can Beijing survive a recession of the level 
we placed in 2008 or even the depression that Roosevelt guided 
us through in the 1930s?
    Mr. Johnson. I think it is an open question. Certainly what 
is clear is that they managed to survive the global financial 
crisis better than a lot of others, but as Mr. Chang said, with 
serious unintended consequences with regard to their response, 
and it does speak to the central element which is the state 
driven system. They poured all this stimulus toward the state 
banks which gave it to inefficient state-owned enterprises and 
now they are buried by this level of debt.
    I think what we need to see is can the reform program that 
was tabled at the Party plenum last fall actually be 
implemented? If it is successful that may be one way that they 
can deal with such problems going forward and make their system 
more resilient.
    Mr. Sherman. Mr. Chang, if this government does lose power, 
will it just peacefully cede power to a different system? Pull 
a Gorbachev, shrug your shoulders, walk off the world stage? Or 
will they use the People's Liberation Army and perhaps even 
their nuclear weapons in an effort to hold onto their system?
    Mr. Chang. I think that when China goes, and it will go 
fairly soon, it will be pretty ugly. You have got to remember 
that the Chinese Communist Party----
    Mr. Sherman. Nuclear ugly or one step less than that?
    Mr. Chang. Ugly with regard to its own people. And what we 
could also see is China doing----
    Mr. Sherman. And you are assuming they would not use 
nuclear weapons against their own people?
    Mr. Chang. Actually, they have threatened to do that 
because they threatened to nuke Taiwan which they believe is 
their 34th province. But apart from that, what we have seen 
China recently do is lash out. Not only against its neighbors, 
not only against the United States, but basically against 
everybody, and that does not make strategic sense. But it is an 
understandable tactic for leaders who are in trouble.
    Mr. Sherman. It is the last refuge of every tyrant. If you 
can't deliver you can at least deliver impassioned 
nationalistic speeches.
    You talked about a number of steps we could take on the 
trade front. Why wouldn't we designate them a currency 
manipulator except for the argument that they are manipulating 
their currency a little less now than they used to? Are they 
not still a currency manipulator and why have we not designated 
them as such?
    Mr. Chang. They still are, because almost every trading day 
the People's Bank of China is in the market influencing the 
Dollar/Renminbi exchange rate. And under U.S. law we have a 
requirement to designate a country as a manipulator if it, in 
fact, manipulates its currency which China does, and it does so 
for a predatory trade purpose.
    Wen Jiabao, who was Premier of China in 2008 or so, came to 
New York and basically said that they were manipulating their 
currency to keep their workers employed. And that is the 
definition of a predatory----
    Mr. Sherman. I wish we cared as much about our workers. But 
go on.
    Mr. Chang. So we have an obligation under U.S. law to 
designate them a manipulator. That doesn't mean we have to do 
anything about it, but we should respect our own law. Because 
when the Chinese see that we don't respect our own law----
    Mr. Sherman. You forgot the provisional law that says if 
Wall Street finds it inconvenient then it doesn't work.
    Mr. Johnson, do you agree?
    Mr. Johnson. I don't have anything to add to what Mr. Chang 
said.
    Mr. Sherman. Okay. We have got a Foreign Corrupt Practices 
Act. It penalizes American companies that bribe Chinese 
officials. Presumably, this is for the benefit of the Chinese 
system. Does our enforcement of the Foreign Corrupt Practices 
Act with regard to U.S. companies doing business in China hurt 
us economically? Does it hurt or help us in other ways?
    Mr. Chang. I will let Mr. Johnson answer that question.
    Mr. Johnson. No, I don't think it does hurt us 
economically. I mean this is how we project our values abroad. 
So I am a firm proponent of enforcement of the FCPA.
    Mr. Sherman. Even with regard to protecting a regime from 
the corruption of corruption when we don't actually wish that 
regime well, at least many of us don't.
    Mr. Johnson. Well, I don't think we would, even if that is 
true I don't think we would want our businesses engaging in 
corruption to help hasten its end if that is what you are 
suggesting.
    Mr. Sherman. Undermine, I think, is a better phrase than 
hasten its end. Mr. Chang, do you have any different view?
    Mr. Chang. Long term, I absolutely agree with Mr. Johnson. 
Short term, you are right. On the short term, if we allowed 
U.S. companies to go bribe Chinese companies they would do very 
well. But long term that does hurt U.S. business not just in 
China but around the world. We learned that with the behavior 
of U.S. companies in Japan. I don't recommend it.
    Mr. Sherman. I am looking for everything that might work. I 
yield back.
    Mr. Chabot. The gentleman's time has expired. I think this 
was a particularly good panel that we had here this afternoon, 
a good discussion, and thank you very much for enlightening us 
on a whole range of issues relative to our relationship with 
China. Members will have 5 days to supplement their statements 
or submit questions in writing. And if there is no further 
business to come before the committee, we are adjourned. Thank 
you very much.

    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
                                 <all>
</pre></body></html>
